             BULK FUEL STORAGE REQUIREMENTS
              FOR MAINTENANCE, REPAIR, AND
               ENVIRONMENTAL PROJECTS AT
                    FORT HOOD, TEXAS


Report No. D-2001-006                October 23, 2000



             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
 604-8937 (DSN 664-8937) or FAX (703) 604-8932.

 Suggestions for Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
 604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-2885

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
 writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
 identity of each writer and caller is fully protected.




Acronyms

APC                   Army Petroleum Center
DESC                  Defense Energy Support Center
DLA                   Defense Logistics Agency
DPW                   Department of Public Works
FORSCOM               U.S. Forces Command
HAARRP                Hood Army Airfield Rapid Refuel Point
JP8                   Jet Petroleum 8
MILCON                Military Construction
MACOM                 Major Army Command
MR&E                  Maintenance, Repair, and Environmental
POS                   Peacetime Operating Stock
RGARRP                Robert Gray Army Airfield Rapid Refuel Point
                        Office of the Inspector General, DoD
Report No. D-2001-006                                                    October 23, 2000
   Project No. D1999CG-0088.001

        Bulk Fuel Storage Requirements for Maintenance, Repair,
            and Environmental Projects at Fort Hood, Texas

                                  Executive Summary

Introduction. This report is one in a series that addresses the accuracy and reliability of
maintenance, repair, environmental, and construction requirements for bulk fuel storage
and delivery systems infrastructure.

The Defense Logistics Agency is responsible for DoD fuel inventory management,
including fuel procurement and sales, and environmental oversight. The Defense
Logistics Agency funds fuel-related infrastructure requirements from two different
funding sources. Maintenance and repair projects are funded through the Defense
Working Capital Fund - - a revolving fund that is continually replenished by a surcharge
added to the sale price of fuel. Renovations and major construction projects are funded
from the Defense Logistics Agency military construction appropriations.

The Military Departments are responsible for the operations of the petroleum facilities
under their cognizance. The Military Departments are also responsible for reviewing,
validating, and prioritizing maintenance, repair, and environmental projects in accordance
with DoD guidance before submitting the projects to Defense Logistics Agency for
review and funding. Although the Military Departments are not prohibited from funding
fuel-related infrastructure requirements, senior Army management has recognized and
emphasized the importance of implementing review and validation procedures to
maximize use of available Defense Logistics Agency funds so that Army operations and
maintenance funds can be put to better use.

Objectives. Our overall objective was to evaluate the accuracy and reliability of DoD
maintenance, repair, environmental, and construction requirements for bulk fuel storage
and delivery systems infrastructure. Specifically, we evaluated requirements for
replacing six bulk fuel storage tanks located at Fort Hood, Texas. We also reviewed the
adequacy of the management control program as it applied to the audit objective.

Results. The Army funded six bulk fuel storage maintenance, repair, and environmental
projects at Fort Hood for FY 1998 that were not supported by valid project requirements.
As a result, the Army spent $3.24 million to replace bulk fuel storage tanks that were not
justified by fuel inventory requirements. Unless the Army improves the requirements
review and validation process, additional funds could be used on nonessential or
unnecessary projects in the future. In addition, the Defense Energy Support Center plans
to outsource the operations and maintenance of the Fort Hood fixed-fuel facilities, to
include facilities that are not justified by fuel inventory requirements and that are not
used for issuing and receiving fuel.

Summary of Recommendations. We recommend that Garrison Commander, Fort
Hood, and the Commander, U.S. Forces Command, establish procedures to review and
validate bulk fuel storage project requirements in accordance with DoD and Army
guidance. We also recommend that the Director, Defense Energy Supply Center,
require that the Army Petroleum Center review all fuel-related maintenance, repair, and
environmental project requirements before the projects are approved for funding.

Management Comments. The Garrison Commander, Fort Hood concurred with the
recommendation and stated that he would issue a memorandum by October 30, 2000,
reemphasizing that future Fort Hood military construction projects will comply with AR
420-10. The Deputy Chief of Staff for Logistics, U.S. Forces Command concurred with
the recommendations and stated that his office will issue guidance directing the
coordination of all MR&E and military construction projects through his office. The
Defense Energy Support Center partially concurred with the recommendation stating
that procedures are being reemphasized. Additionally, the Defense Energy Support
Center is establishing an automated project submission process using the Defense Fuels
Web that will electronically submit Army projects to the Army Petroleum Center for
validation, approval, and prioritization before DESC review and approval. A discussion
of the management comments is in the Finding section of the report, and the complete
text is in the Management Comments section.




                                           ii
Table of Contents

Executive Summary                                                       i


Introduction
     Background                                                         1
     Objectives                                                         1

Finding
     Excess Bulk Fuel Storage Infrastructure                            3

Appendixes
     A. Audit Process
          Scope                                                        12
          Methodology                                                  12
          Management Control Program                                   13
          Prior Coverage                                               13
     B. DoD and Army Guidance for Managing Bulk Fuel Storage MR&E
          Projects                                                     14
     C. Calculation of 1998 POS Authorization by Fixed Fuel Facility   17
     D. Annual Maintenance, Repair and Environmental Project Cycle     18
     E. Report Distribution                                            19

Management Comments
     Department of the Army                                            21
     Defense Logistics Agency                                          25
Introduction
     This report is one in a series being issued by the Inspector General, DoD, on DoD
     maintenance, repair, and environmental (MR&E) and military construction
     (MILCON) requirements for bulk fuel storage and delivery systems infrastructure
     (storage tanks, pipelines, dispensing facilities, hydrants, etc.). The Defense
     Logistics Agency (DLA) Defense Energy Support Center (DESC) is responsible
     for budgeting and funding MR&E and MILCON for DoD fuel terminals
     worldwide.



Background
     The DLA is responsible for DoD fuel inventory management including fuel
     procurement and sales and environmental oversight. The DLA funds fuel-related
     infrastructure requirements from two different funding sources. Maintenance
     and repair projects are funded through the Defense Working Capital Fund - - a
     revolving fund that is continually replenished by a surcharge added by DLA to
     the sale price of fuel. Renovations and major construction projects are funded
     from the DLA MILCON appropriations.

     The Military Departments are responsible for the operation of petroleum
     facilities under their cognizance. The Military Departments also review,
     validate, and prioritize maintenance, repair and environmental projects in
     accordance with DoD guidance before submitting the projects to DLA for review
     and funding. Although the Military Departments are not prohibited from funding
     fuel-related infrastructure requirements, senior Army management has
     recognized and emphasized the importance of implementing review and
     validation procedures to maximize the use of available DLA funds so that Army
     operations and maintenance funds can be put to better use.

     Army Petroleum Center Procedures for Petroleum Facility Project
     Management. The Army Petroleum Center (APC) documented Army procedures
     for implementing effective petroleum facility project management in an October
     1996 electronic message to the U.S. Forces Command (FORSCOM) and others.
     The message stated that each Army installation primary logistics point of contact
     will ensure that facility MR&E documentation is submitted through the major
     Army command (MACOM) logistics focal point to help ensure the accuracy and
     validity of data submissions. The message also stated that the MACOM logistics
     focal point will coordinate the preparation of a command MR&E project
     prioritization list and submit all data to APC in a timely manner.



Objectives
     Our overall objective was to evaluate the accuracy and reliability of DoD MR&E
     and construction requirements for bulk fuel storage and delivery systems

                                         1
infrastructure. Specifically, we evaluated requirements for replacing six bulk fuel
storage tanks located at Fort Hood, Texas. We also reviewed the adequacy of the
management control program as it applied to the audit objective. See Appendix A
for a discussion of the audit scope and methodology and the review of the
management control program.




                                     2
            Excess Bulk Fuel Storage Infrastructure
            The Army funded six bulk fuel storage MR&E projects at Fort Hood in
            FY 1998 that were not supported by valid requirements. Those projects
            were not supported because installation senior management, the major
            Army command, and the Army Petroleum Center did not adequately
            review, validate, prioritize, or implement fuel-related MR&E project
            requirements in accordance with DoD and Army guidance. As a result,
            the Army spent $3.24 million to replace bulk fuel storage tanks that were
            not justified by fuel inventory requirements. Unless the Army improves
            the requirements review and validation process, additional funds could be
            used on nonessential or unnecessary projects in the future. In addition,
            DESC plans to outsource the operations and maintenance of the Fort Hood
            fixed-fuel facilities, to include facilities that are not justified by fuel
            inventory requirements.



Policy Guidance
     DoD guidance prescribes policy for bulk fuel storage and delivery systems
     infrastructure. The guidance also documents the processes and assigns
     responsibilities for managing the infrastructure. Army policies and procedures
     implement the DoD guidance, and Army regulations on inventory management
     supply policy assign responsibilities for bulk fuel and related infrastructure. See
     Appendix B for details on specific DoD and Army guidance for managing bulk
     fuel storage MR&E projects.



Fort Hood Bulk Fuel Storage Facilities
     Fort Hood is a 340-square mile training, mobilization, and deployment installation
     that operated and maintained four separate fuel facilities with a combined total
     storage capacity of 2.89 million gallons of jet petroleum 8 (JP8) fuel and motor
     gasoline until FY 1998. The fuel facilities included the following locations.

            •   West Fort Hood Tank Farm provided all retail and bulk fuel refueling
                to tactical wheeled vehicles as well as support to Reserve and National
                Guard units that train on the installation. This facility consisted of one
                200,000-gallon and two 600,000-gallon above ground storage tanks for
                JP8 fuel, and one 200,000-gallon above ground storage tank for motor
                gasoline.

            •   Robert Gray Army Airfield Alert Services provided support to fixed-
                wing aircraft and consisted of two 500,000-gallon above ground
                storage tanks for JP8 fuel, four bulk receiving points, four issue points,
                and seven hydrant points on the airfield service ramp.


                                          3
                 •    Robert Gray Army Airfield Rapid Refuel Point (RGARRP) provided
                      refueling support to rotary-wing aircraft for the First Calvary Division
                      and supporting units. The facility consisted of three 47,661-gallon JP8
                      fuel underground storage tanks.

                 •    Hood Army Airfield Rapid Refuel Point (HAARRP) provided refuel
                      support to rotary-wing aircraft for the 4th Infantry Division and
                      supporting units. The facility consisted of three 47,661-gallon JP8 fuel
                      underground storage tanks.

         Bulk Fuel Storage Requirements. The DESC documented Fort Hood authorized
         peacetime operating stock (POS) fuel levels in the annual Inventory Management
         Plan based on actual prior year fuel usage in accordance with DoD 4140.25-M.
         Fort Hood maintained an authorized POS fuel inventory level of 268,002 gallons of
         JP8 fuel for FY 1997. Fort Hood maintained JP8 bulk fuel storage capacity,
         however, for more than 2.69 million gallons.1


              Table 1. FY 1997 Bulk Fuel Inventory Requirements Versus Storage
                                          Capacity
                                           (gallons)

                                               Authorized POS                  Bulk Fuel Storage
                 Type of Fuel                  Fuel Inventory                      Capacity
            JP8                                    268,002                        2,685,966
            Motor gasoline                               0                          200,000
              Total                                268,002                        2,885,966

         Bulk Fuel Storage Environmental Deficiencies. In 1995, Fort Hood
         management personnel determined that existing bulk fuel storage facilities at two
         rapid refuel facilities did not meet the environmental requirements outlined in
         Title 40 of the Code of Federal Regulations, part 280, “Technical Standards and
         Corrective Action Requirements for Owners and Operators of Underground
         Storage Tanks” (Title 40). Title 40 requires that noncompliant underground
         storage tanks be corrected to address the environmental concerns no later than
         December 22, 1998. Fort Hood personnel stated that the underground storage
         tanks could not be upgraded because they were constructed of single-wall
         fiberglass. Therefore, Fort Hood personnel initiated MR&E projects to remove
         and replace the existing tanks.

1
 Fort Hood maintained 2.42 (2,686,000 – 268,000 = 2,418,000 = 2.42 ) million gallons of JP8 fuel storage
 capacity more than was necessary to support its POS fuel inventory requirements. According to Fort
 Hood personnel, excess storage capacity had increased over the years because of constant reductions in
 fuel inventory requirements that resulted from downsizing and other issues. In addition, DESC and APC
 personnel stated that fuel storage tanks not in use cost as much, or more, to maintain than storage tanks
 that regularly receive and issue fuel. Furthermore, the West Fort Hood Tank Farm had more than
 sufficient capacity to store the maximum fuel inventory requirements for Fort Hood, but we recognize that
 fuel must be positioned at other refueling points on the installation to meet mission requirements. As a
 result, the report does not refer to the 2.42 million-gallon variance as excess capacity and does not
 recommend closing storage tanks unsupported by current fuel requirements.


                                                    4
Bulk Fuel Tank Replacement Efforts
         The Army funded six bulk fuel storage MR&E projects at Fort Hood that were not
         supported by valid project requirements. Although Fort Hood personnel initiated
         MR&E projects to remove six storage tanks that were not compliant with
         statutory environmental requirements, they subsequently included the installation
         of five new tanks.

         Fort Hood personnel submitted documentation for six MR&E projects to DESC in
         June 1997 in response to the FY 1998 MR&E project data call. The scope of the
         projects required the replacement of six 47,661-gallon underground storage tanks
         with five 50,000-gallon above ground storage tanks at the two rapid refuel
         facilities. Three new tanks were to be installed at the HAARRP facility and two
         were to be installed at the RGARRP facility. The projects had an estimated total
         cost of $2.6 million and were completed in December 1998 for a total cost of
         $3.24 million. The new projects only affected the JP8 fuel storage capacity at the
         two rapid refuel facilities. Fort Hood personnel did not validate the requirement
         for the storage capacity provided by the new tanks.
         DoD Directive 4140.25M states that the maximum authorized fuel inventory level
         equals the sum of the POS and bulk petroleum war reserve stock requirements
         documented in the Inventory Management Plan.2 The Inventory Management Plan
         documented the 1998 Fort Hood POS as 412,818 gallons of JP8 fuel. The DESC,
         Fort Hood, and APC personnel were unable to identify the 1998 POS by fuel
         facility at Fort Hood. Therefore, we calculated the portion of the 1998 POS that
         should have been attributed to the two rapid refuel facilities at Fort Hood based on
         the ratios used in the 1998 Fort Hood request for additional POS. The results
         (shown in Appendix C) indicated the 1998 POS attributed to the two rapid refuel
         facilities should have been 60,584 gallons of JP8 fuel; therefore, a storage capacity
         of five 50,000-gallon tanks, or 250,000 gallons, was not justified.

                       Table 2. JP8 Fuel Storage Tank Capacity Compared to
                                        POS Authorization

                              Capacity Before             Capacity After               1998 POS
               Sites          MR&E Projects               MR&E Projects               Authorization
            HAARRP                  142,983                    150,000                      31,374
            RGARRP                  142,983                    100,000                      29,310
             Total                  285,966                    250,000                      60,584

         Fort Hood personnel stated that all of the new storage tanks contained fuel, but
         some of the tanks were routinely filled to only 10 percent of capacity. In an
         April 1998 memorandum from Fort Hood to APC requesting an increase in POS
         inventory, Fort Hood questioned the maintenance effect on the existing storage
2
 Although Fort Hood stored JP8 fuel in support of a war reserve requirement, we omitted any discussion of
 the war reserve requirement because of its classified nature and because that requirement was insignificant
 to the overall bulk fuel storage capacity.


                                                     5
    tanks of routinely storing only 10 percent of their maximum fuel capacity. The
    memorandum also states that the storage capacity provided by the new storage
    tanks might be considered excessive, based on recommended POS figures. DoD
    4140.25-M states that prior year actual fuel usage dictates POS fuel inventory
    requirements, and fuel storage infrastructure must support those requirements.
    Fort Hood personnel, however, constructed the fuel storage tanks and then used
    the available capacity as a justification for requesting additional fuel.



Army Bulk Fuel MR&E Requirements Validation Process
    Installation senior management, the major Army command, and the Army
    Petroleum Center did not adequately review, validate, prioritize, or implement
    fuel-related MR&E project requirements in accordance with DoD and Army
    guidance.

    Installation Project Review. Fort Hood Department of Public Works (DPW)
    personnel did not adequately coordinate approval of the MR&E projects.
    Fort Hood logistics personnel did not adequately project or coordinate future
    requirements for the petroleum, oil, and lubricants storage facilities. Fort Hood
    personnel stated that although DPW and the 13th Corps Support Command
    reviewed the project documentation, no one validated the requirements for fuel
    storage capacity at the rapid refuel locations. Fort Hood logistics personnel also
    stated that they have no role in MR&E project development, review, or validation.

             Directorate of Public Works. The Director, DPW must comply with the
    requirements of AR 420-10 and coordinate the approval of installation MR&E
    projects. Fort Hood DPW personnel stated that they prepared the project
    documentation (DD Form 1391) and validated the technical requirements from an
    engineering perspective. The DPW personnel further stated that they did not
    validate the need for the storage tanks based on the POS fuel inventory storage
    capacity requirements in the Inventory Management Plan. The DPW personnel
    stated it was their understanding that logistics or the 13th Corps Support
    Command personnel were responsible for validating those requirements.

            The 13th Corps Support Command. The 13th Corps Support Command
    had oversight responsibility for the fixed-facility mobility fuel operations. The
    13th Corps Support Command personnel stated that although they worked with
    DPW on the MR&E project submissions to replace the storage tanks, they did not
    validate the need for the storage tanks based on the POS fuel inventory storage
    capacity requirements authorized in the Inventory Management Plan. The 13th
    Corps Support Command personnel stated that they believed DPW personnel
    were responsible for validating operational requirements.




                                        6
        Directorate of Logistics. The Department of the Army, Headquarters, III
Corps and Fort Hood Regulation 703-2, “Petroleum Management Operations and
Procedures,” April 1, 1998 (FH Reg 703-2), states that the Directorate of
Logistics is responsible for projecting and coordinating future requirements for
fuel facilities. The directorate is also responsible for planning and programming
construction and maintenance requirements. APC procedures require that the
installation logistics point of contact coordinate facility MR&E documentation
with the MACOM logistics focal point. The Fort Hood Directorate of Logistics,
however, had not designated an installation logistics point of contact and had no
role in MR&E project development, review or validation. The Directorate of
Logistics personnel did not know who had responsibility for project review or
validation.

MACOM Project Review and Validation. FORSCOM personnel did not
adequately implement Army procedures to validate the accuracy of data
submissions. The FORSCOM logistics focal point did not effectively coordinate
information on the MR&E project prioritization list or submit the data to APC in a
timely manner. The FORSCOM engineering personnel reviewed the project
documentation (DD Form 1391) for completeness and accuracy and performed an
engineering review of the technical requirements. The FORSCOM engineering
personnel approved the new bulk fuel storage projects, but did not validate the
need for the storage tanks based on the POS fuel inventory requirement
authorized in the Inventory Management Plan.

        FORSCOM Responsiveness to Annual MR&E Data Call. FORSCOM
logistics personnel acknowledged that Army installations were required to submit
MR&E project documentation to the MACOM for validation and prioritization.
FORSCOM also acknowledged that the MACOM was responsible for forwarding
the projects to APC for review and DESC for funding. The logistics personnel
stated, however, that FORSCOM installations did not routinely respond to the
annual data call for MR&E project submissions and regularly submitted
documentation directly to DESC instead of to FORSCOM headquarters. The
logistics personnel illustrated the point by stating that the FORSCOM logistics
directorate received one negative response to the January 2000 MR&E project
data call. FORSCOM logistics and engineering managers stated that they could
not confirm knowledge of all existing FORSCOM MR&E projects and, therefore,
could not effectively prioritize MACOM projects for APC. The logistics
personnel stated that the problem was a manpower issue and that MR&E project
validation responsibilities were being transitioned to the engineers.

        APC Recommendations to FORSCOM. A memorandum from APC to
the Deputy Chief of Staff for Logistics and Readiness, FORSCOM, dated
December 16, 1997, outlines the inadequacies of Army MR&E and MILCON
fuel-related project submissions to APC. The memorandum cites the lack of
installation and MACOM engineering involvement throughout the project
development process, submission of poorly documented projects, and requests for
fuel storage in excess of authorized fuel stockage levels.




                                    7
        FORSCOM Personnel Recognized Process Inadequacies. The Office of
the Deputy Chief of Staff for Logistics, FORSCOM, provided briefing charts that
documented Army MILCON and MR&E process inadequacies and
recommendations to address the inadequacies. The briefing charts showed that the
key problem was that FORSCOM did not have a focal point for managing fuel-
related MR&E and MILCON programs. The briefing charts documented that
FORSCOM installations were not submitting funding requirements or project
submissions by suspense dates, or coordinating with DESC. FORSCOM
personnel stated that they had not implemented the recommendations because of
manpower shortages.

Army Petroleum Center Project Review and Prioritization. The Army did not
adequately implement the requirements in accordance with DoD and Army
guidance to ensure that the service control point reviewed and validated fuel-
related projects and developed a consolidated project priority list. The guidance
states that APC is the service control point for the Army and is designated to
manage and coordinate requirements and technical issues with the military units
and DESC. Army Regulation 710-2 requires that APC review all plans for new
construction, modifications, or upgrades of petroleum facilities.

        MR&E Projects Funded Without APC Review. FORSCOM personnel
did not submit the MR&E projects to APC for review until June 1997. The APC
personnel stated they did not review the documentation because it was received
too late in the MR&E cycle to be considered for 1998 funding. See Appendix D
for the annual MR&E project cycle. The APC personnel stated that they expected
to see the projects resubmitted for 1999 funding, but learned when the projects
were listed in the DESC MR&E project database, that the Fort Hood projects
were already funded.

        The Fort Hood Fuel Facility Assessment. The APC and DESC
performed an assessment of the fuel facilities at Fort Hood in June 1998. The
assessment determined that the Fort Hood mobility fuel infrastructure was
relatively modern and did not require replacement. The assessment also
concluded that:

              •   transaction histories and POS authorizations for the rapid refuel
                  facilities indicated that one contractor-operated rapid refuel
                  facility would provide economic day-to-day mission support;
                  and

              •   the second rapid refuel facility should be mothballed, but made
                  available for contingency operations, as required. This option
                  would save an estimated $2.4 million over a 20-year contract
                  period.

       The assessment stated that the HAARRP storage capacity of
150,000 gallons provided adequate space for rapid refuel operations. The
assessment recommended that Fort Hood develop a contingency plan to open the
RGARRP facility to support increased activity, as required.



                                    8
MR&E Projects Funded by the Army
    Although DLA DESC had responsibility for funding facilities that store and
    distribute aviation fuel, the Army did not effectively use the DESC funding
    because Fort Hood personnel did not adequately implement Army policies to
    manage the MR&E projects. Fort Hood personnel did not submit timely
    documentation requesting MR&E funding from DESC in accordance with their
    guidance. In July 1995, Fort Hood personnel initiated work requests to design
    and construct above ground systems and to remove existing underground tanks
    after construction wacomplete. However, original MR&E project documentation
    was not submitted to FORSCOM and DESC until June 1997. Fort Hood
    personnel stated that they funded the projects with Army operations and
    maintenance funds because of the time-sensitive environmental requirement and
    expected DESC reimbursement after project approval. DESC funded the
    projects in December 1997. Army legal counsel advised return of the funds to
    DESC because restrictions limited the use of the funds to specific projects and
    not for Army operations and maintenance fund reimbursement.

    DESC Approved MR&E Funding Without APC Approval. DESC did not
    ensure that APC reviewed the projects prior to approval and funded the projects
    in December 1997. DoD Directive 4140.25M requires that the service control
    point review and approve all fuel-related MR&E projects funded by DESC.
    DESC personnel stated that they have neither the visibility nor the responsibility
    to validate mission requirements and they rely on the Services to validate those
    requirements.

    As the Army service control point for petroleum facilities, APC should review all
    Army fuel-related MR&E projects. The APC project reviews are critical to
    MR&E project validation and project prioritization. In addition, projects not
    submitted for APC review cannot be prioritized by the APC to ensure that the
    highest priority Army projects are recommended for funding approval.



Bulk Fuel Storage Operations and Maintenance Costs
    The Army must fund the operations and maintenance of bulk fuel storage tanks
    that do not support fuel inventory requirements because the Army did not
    adequately implement DoD and Army guidance for reviewing and validating
    fuel-related MR&E project requirements.

    The APC personnel stated that maintenance of fuel storage tanks that are not in
    use costs as much as, or more than, maintenance of storage tanks that regularly
    receive and issue fuel. Therefore, the Army must fund the operations and
    maintenance of bulk fuel storage tanks that are unnecessary to meet fuel inventory
    requirements.




                                         9
    As of June 2000, Fort Hood personnel initiated action to establish a DESC service
    contract to outsource fixed-fuel operations. The June 1998 Fort Hood Fuel
    Facility Assessment recommended outsourcing the fixed-fuel operations with the
    exception of one rapid refuel point, as noted above. The DESC personnel stated
    that although the performance work statement assigns contractor responsibility to
    all four facilities, the contractor is only required to perform preventative
    maintenance and ensure that the rapid refuel points are ready for service. The
    DESC personnel stated that requirements will determine which rapid refuel
    facility is used and how often it is used. The DESC personnel also stated that the
    contract could be amended to exclude one of the rapid refuel facilities, but that
    would precipitate closing the facility which is very costly. The DESC personnel
    added that the costs associated with maintaining both rapid refuel facilities are
    minimal with little impact on total contract costs.



Conclusion
    The Army completed the new fuel storage tank MR&E projects in December
    1998. The requirement for five new tanks was not valid, but the Army must
    continue to operate and maintain the tanks. With APC and DESC support, the
    Army opted to outsource tank operations and maintenance through a DESC
    service contract. Although it is too late to remedy the FY 1998 investment, the
    Army must improve their processes to avoid future problems.



Recommendations and Management Comments
    1. We recommend that the Garrison Commander, Fort Hood, establish
    procedures to coordinate approval of maintenance, repair, and
    environmental projects that ensure compliance with DoD 4140.25-M and
    Army Regulation 420-10.

    Management Comments. The Garrison Commander, Fort Hood, concurred and
    stated that he would issue a memorandum by October 30, 2000, reemphasizing
    that future Fort Hood military construction projects will comply with AR 420-10.

    2. We recommend that the Commander, U.S. Forces Command, establish
    procedures to:

          a. Implement Army Petroleum Center guidelines for managing
    maintenance, repair, and environmental projects that include:

                  •   Army Petroleum Center policy that requires the major
                      Army commands to respond to maintenance, repair, and
                      environmental project data calls.



                                        10
              •   The recommendations from Army Petroleum Center to
                  the Deputy Chief of Staff for Logistics and Readiness, U.S.
                  Forces Command, dated December 16, 1997, that cite the
                  lack of installation and major Army command engineering
                  involvement throughout the project development process,
                  submission of poorly documented projects, and requests
                  for fuel storage in excess of authorized fuel levels.

       b. Resolve the internally identified maintenance, repair, and
environmental process inadequacies documented by the Office of the Deputy
Chief of Staff for Logistics, U.S. Forces Command.

Management Comments. The Deputy Chief of Staff for Logistics, U.S. Forces
Command, concurred and stated that his office will issue guidance directing the
coordination of all MR&E and military construction projects through his office.
Additionally, U.S. Forces Command is coordinating with the Army Petroleum
Center and the Defense Energy Support Center to ensure that U.S. Forces
Command approves and prioritizes all projects submitted by U.S. Forces
Command installations before any action by either APC or DESC. All actions
should be complete by October 30, 2000.

3. We recommend that the Director, Defense Energy Support Center modify
existing policies and procedures to require Army Petroleum Center approval
of bulk fuel storage maintenance, repair, and environmental projects before
the projects are approved for funding.

Management Comments. The Defense Energy Support Center partially
concurred with the recommendation, stating that procedures already require Army
Petroleum Center approval of bulk fuel storage maintenance, repair, and
environmental projects, but that the Fort Hood project was overlooked. However,
the procedures are being reemphasized. Additionally, the Defense Energy
Support Center is establishing an automated MR&E project submission process
using the Defense Fuels Web. All Army MR&E projects will be electronically
submitted to the Army Petroleum Center for validation, approval, and
prioritization before any DESC review and approval.




                                   11
Appendix A. Audit Process

Scope
    Work Performed. We reviewed DoD and Army guidance for validating bulk
    fuel storage infrastructure project requirements and conducted on-site visits to
    determine whether the guidance was adequately implemented. We reviewed the
    policies and procedures that Army personnel used to review and validate
    maintenance, repair, and environmental requirements for removal and
    replacement of fuel storage tanks at Fort Hood, Texas. We reviewed cost data
    associated with operating and maintaining the Fort Hood fixed-fuel facilities.
    However, we were unable to determine the potential monetary savings from
    outsourcing the operations and maintenance of only one rapid refuel facility
    because the cost data was not separated by facility. We also reviewed the fuel
    consumption reports at Fort Hood from January 1998 to December 1999.
    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Department of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure:
           FY 2000 DoD Corporate Level Goal: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer
           the Department to achieve a 21st century infrastructure. (00-DoD-2)
           FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (00-DoD-2.3) FY 2000
           Performance Measure 2.3.1: Percentage of the DoD Budget Spent on
           Infrastructure. (00-DoD-2.3.1)
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.


Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.
    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from August 1999 through June 2000 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD.



                                        12
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of Army management controls over bulk fuel storage MR&E projects.
    Specifically, we reviewed management controls over the review and validation
    process for bulk fuel storage MR&E project requirements. We reviewed
    management’s self-evaluation applicable to those controls.
    Adequacy of Management Controls. We identified a material management
    control weakness for the Army as defined by DoD Instruction 5010.40. Army
    management controls for MR&E projects were not adequate to ensure that bulk
    fuel storage MR&E project requirements were adequately reviewed and validated.
    Recommendations 1, 2, and 3, if implemented, will establish controls within
    Army procedures to ensure bulk fuel storage MR&E project requirements are
    adequately reviewed and validated. A copy of the report will be provided to the
    senior official responsible for management controls in the Department of the
    Army.

    Adequacy of Management’s Self-Evaluation. Army officials did not identify
    bulk fuel storage MR&E projects as an assessable unit and, therefore, did not
    identify or report the material management control weaknesses identified by the
    audit.



Prior Coverage
    Inspector General, DoD, Report No. D-2000-164, “Bulk Fuel Storage and
    Delivery Systems Infrastructure Requirements for Yakima Training Center,
    Washington,” July 20, 2000.

    Inspector General, DoD, Report No. D-2001-003, “Bulk Fuel Storage and
    Delivery Systems Infrastructure Requirements for Japan,” October 12, 2000.




                                       13
Appendix B. DoD and Army Guidance for
            Managing Bulk Fuel Storage
            MR&E Projects

DoD Guidance
    DoD Directive 4140.25, “DoD Management Policy for Energy Commodities
    and Related Services,” April 20, 1999. DoD Directive 4140.25 prescribes DoD
    policy for energy and related programs (that is, petroleum, natural gas, coal,
    propellants, and others). The directive requires that programs support DoD
    peacetime and wartime missions and permit successful and efficient deployment
    and employment of forces. DoD Components are also directed to minimize
    inventories consistent with peacetime and contingency needs.

            DoD Responsibilities. The directive designates the Deputy Under
    Secretary of Defense (Logistics) as the DoD central administrator for energy
    policy and overall management responsibility for petroleum. The directive
    designates the Deputy Under Secretary of Defense (Installations) as the DoD
    central manager for energy policy on installations.

             Defense Logistics Agency Responsibilities. The Director, DLA is
    responsible for planning, programming, and budgeting for facility maintenance
    and repair; environmental compliance of petroleum storage and distribution
    facilities; and construction of new permanent storage and distribution facilities.
    In addition, DLA is required to coordinate these functions with the Services and
    Combatant Commanders.

           Military Departments Responsibilities. The Secretaries of the Military
    Departments are responsible for the operations of petroleum facilities under their
    cognizance.

    DoD 4140.25-M, “DoD Management of Bulk Petroleum Products, Natural
    Gas, and Oil,” June 22, 1994. DoD 4140.25-M (the Manual) implements DoD
    Directive 4140.25 and prescribes policy guidance, supply operating procedures
    and reporting instructions, and assigns functional responsibilities for the
    integrated management of bulk petroleum products and associated bulk storage
    facilities. Each Service also establishes and designates a service control point as
    the central management function to coordinate requirements and technical issues
    with the military units and the DESC.

            MILCON and MR&E Project Review and Validation. The Combatant
    Command Joint Petroleum Office and the service control points are responsible
    for MILCON and MR&E project review and validation, as well as developing
    consolidated project priority lists. The Joint Petroleum Offices and the service
    control points forward candidate projects and consolidated project priority lists to
    DESC for review, validation, and funding approval.


                                         14
            Bulk Fuel Inventory Categories. The manual establishes two categories
    of liquid petroleum products: peacetime operating stock (POS) and petroleum
    wartime reserve stock. The POS is defined as the amount of fuel required to
    sustain peacetime operations in support of military demands at a Defense fuel
    supply point. The manual provides the formula for computing POS and requires
    that DESC compute POS and publish an inventory management plan that lists
    approved inventory levels and requirements for each location. The formula for
    POS gives emphasis to actual amount of prior year fuel usage. Installations must
    justify variances of more than ten percent between projected requirements and
    actual prior year usage. Petroleum wartime reserve stock is defined as inventory
    held in support of petroleum wartime reserve requirements.

            Annual Cycle for the Submission of Project Documentation. The
    manual describes the annual cycle for petroleum MILCON and MR&E
    compliance project submissions. A graphic explanation of the MR&E timetable
    is provided in Appendix D.

Army Guidance
    Army Regulation 710-2, “Inventory Management Supply Policy Below the
    Wholesale Level,” October 31, 1997. Army Regulation 710-2 states that
    sufficient tankage must be available to store POS and that normal peacetime
    operations require maintaining fuel stock necessary to support 5 days of normal
    operations. The Army Petroleum Center is responsible for reviewing all plans
    for new construction, modifications, or upgrades of petroleum facilities.

    Army Regulation 420-10, “Management of Installation Directorates of
    Public Works,” April 15, 1997. Army Regulation 420-10 requires that
    MACOMs establish DPW organizational, operational, and administrative
    procedures for installations under their command. The regulation also requires
    that the MACOMs schedule technical reviews of projects and DPW programs.
    The regulation further requires the Director of Public Works to:

           •   coordinate the approval of installation maintenance, repair, and
               construction projects to ensure compliance with statues and
               regulations;

           •   plan and prioritize project work and maintain a central data base for
               requirements and a centralized tracking system that accounts for
               projects; and

           •   prepare and submit DD Form 1391 for maintenance, repair, or
               construction projects over the dollar thresholds outlined in Army
               regulations.

    Department of the Army, Headquarters, III Corps and Fort Hood
    Regulation 703-2, “Petroleum Management Operations and Procedures,”
    April 1, 1998 (FH Reg 703-2). The FH Reg 703-2 applies to III Corps and Fort
    Hood units and activities and prescribes policies, assigns responsibilities, and

                                        15
establishes procedures for petroleum management. The Directorate of Logistics
is to project and coordinate future requirements for petroleum-, oil-, and
lubricants-handling facilities, as well as, planning and programming for
associated construction and maintenance. The FH Reg 703-2 assigns the
13th Corps Support Command the daily management of petroleum, oil, and
lubricants stock; solicitation and consolidation of near term fuel requirement
projections; and user maintenance of the bulk petroleum, oil, and lubricants
stockage points.




                                   16
Appendix C. Calculation of 1998 POS
            Authorization by Fixed Fuel
            Facility
   The annual Inventory Management Plan documented the 1998 Fort Hood POS
   as 412,818 gallons of JP8 fuel. However, DESC, Fort Hood, and APC personnel
   were unable to identify the 1998 POS at each fuel facility at Fort Hood. Therefore,
   we calculated the portion of the 1998 POS that should have been attributed to the
   two rapid refuel facilities at Fort Hood by determining the ratios used in the 1998
   Fort Hood request for additional POS and applying the ratios to the 1998 POS of
   412,818.

   The results indicated the 1998 POS attributed to the two rapid refuel facilities
   should have been 60,584 gallons of JP8 fuel.


           Calculation of 1998 POS Authorization by Fixed Fuel Facility

                         POS Requested         Percentage of          1998 POS
                          by Ft. Hood              Total           Authorization by
        Site               (gallons)            Requested          Facility (gallons)1
     WFHTH2                  308,322                 43.8                 180,814
     RGAAF3                  291,396                 41.5                 171,319
     RGARRP                    49,686                 7.1                   29,310
     HAARRP                    53,466                 7.6                   31,374
      Total                  702,870                100.0                412,8184
    1
      1998 POS of 412,818 gallons multiplied by   applicable percentage.
    2
      West Fort Hood Tank Farm
    3
      Robert Gray Army Airfield Alert Services
    4
     Rounding discrepancy of 1 gallon.




                                        17
Appendix D. Annual Maintenance, Repair and
            Environmental Project Cycle
   The following figure prescribes the annual submission cycle for MR&E projects
   in accordance with DoD Directive 4140.25-M.


         Annual Maintenance, Repair and Environmental Project Cycle

                                 O N D J F M A M J J                   A S O
                                 c o e a e a p a u u                   u e c
                                 t v c n b r r y n l                   g p t
    Data Call                    X
    Projects forwarded to
    MACOMS
    Projects forwarded to                       X
    DESC
    Annual work plan
    developed for DLA
    DESC forwards approved
    project list to MACOMs
    Design funding for
    approved projects
    Construction funding                                                      X
    available after October 1

   The DESC sends out a data call in October for MR&E project nominations for a
   2-year period beginning with the budget year (for example, October 1993 data
   call required submissions for FYs 1995 and 1996). DESC sends the data call to
   the Combatant Command Joint Petroleum Offices and service control points. The
   Combatant Command Joint Petroleum Offices and service control points relay the
   data call to their field activities. Combatant Command Joint Petroleum Offices
   and service control points review and validate project submissions and develop a
   consolidated project priority list for DESC by February 1. DESC reviews and
   validates the projects and performs programming and budgeting for approved
   projects from February through April. DESC provides the consolidated list of
   approved projects to the Combatant Command Joint Petroleum Offices and
   service control points in May.




                                      18
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer))
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Installations)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Chief of Staff for Installation Management
Commander, U.S. Forces Command
   Garrison Commander, Fort Hood
Auditor General, Department of the Army
Director, Army Petroleum Center

Department of the Navy
Naval Inspector General

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Office of Management and Budget




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          20
Department of the Army
Comments




                     21
22
     Final Report
      Reference




     Page 10




23
24
Defense Logistics Agency
Comments




                      25
26
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD, who
contributed to the report are listed below.

Paul J. Granetto
Wayne K. Million
Deborah L. Carros
Hugh J. Elliott
Andrew A. MacAttram
James E. Miniter
Amy L. Schultz
